n

IN THE
SUPREME COURT OF THE UNITED STATES

In re LEONARD ENGLISH, JR.

- PETITIONER

filed
FEB 2 6 2021
ON PETITION FOR WRIT OF MANDAMUS TO
THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR WRIT OF MANDAMUS

Leonard English, Jr.
2713 Josephine Street
Mobile, AL 36607
(303) 638-3355
Page 1 of 34

r

Question Presented
l) Does any judge have the discretion to arbitrarily pick what
relevant written & verified facts to consider and not apply them to
governing laws for no stated reason?
2) Do American citizens have a right to request help from the
government for a dispute according to the First Amendment of the
United States Constitution?
3) Do American citizens have equal protection under the law
according to the Fifth Amendment?
4) The Canons say we have the right to fairness, impartially, and to
be heard in American courts, but is this also a basic civil right
under the Ninth Amendment?
5) Can a minority citizen depend on the written laws and policies &
procedures of America when the opposition is a majority?
6) Does an American employee have any rights when it comes to
avoiding situations that might lead to imprisonment when they
are in a hostile, harassing, and retaliatory work environment?

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.

W] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:

1) THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
2) THE UNITED STATES SMALL BUSINESS ADMINISTRATION
THROUGH THEIR DEFENDERS, THE DEPARTMENT OF JUSTICE
3) SOLICITOR GENERAL OF THE UNITED STATES

RELATED CASES
NONE

TABLE OF CONTENTS

OPINIONS BELOW.

2

JURISDICTION.

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-20

REASONS FOR GRANTING THE WRIT

24-27

CONCLUSION.

28-31

INDEX TO APPENDICES
APPENDIX A

Decision of United States Court of Appeals for the Tenth Circuit

APPENDIX B

Decision of United States District Court for the District of Colorado(#52)

APPENDIX C

Order by United States District Court for the District of Colorado Denying
Motion for Reconsideration(#59)

APPENDIX D

Order by United States Court of Appeals for the Tenth Circuit Denying
Petition for Panel Rehearing and Rehearing En Banc

APPENDIX E

Petition for Panel Rehearing and Rehearing En Banc

APPENDIX F

Plaintiffs Reply In Support of Motion to Alter or Amend Judgment(#58)

APPENDIX G

Appellant’s Reply Brief for Appeal to United States Court of Appeals for the
Tenth Circuit

APPENDIX H

Undisputed Facts(#39)

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

1. Burlington Industries, Inc. v. Ellerth,
118 S. Ct. 2257 (1998)..........................

10, 11, 12, 28, 29

2. Burlington Northern & Santa Fe Railway Co. v. White,
548 U.S. (2006)
7, 10, 11, 12, 28, 29, 30
3. Faragherv. City ofBoca Raton,
118 S. Ct. 2275 (1998)................

10, 11, 12, 28, 29

4. Staub v. ProctorHosp., 562 U.S. 411, 418-22 (2011)
5. Withrow v. Larkin,
421 U.S. 35, 58 (1975)

6

10,11, 12, 28, 29, 30

STATUTES
U.S. Constitution, ARTICLE VI

12

U.S. Constitution, First Amendment

13, 29

U.S. Constitution, Fifth Amendment

13, 17, 25

U.S. Constitution, Ninth Amendment

14, 25

AH Writs Act

18

Civil Rights Act of 1964, Title VII, SEC. 2000e-3. [Section
704]

28

RULES
Supreme Court Rule(SCR) 20

4

Supreme Court RuIe(SCR) 21

4

SCR 33.1(d)

32

SCR 33.2(b)

32

SCR 29

33

OTHER

THE RULE OF LAW

14, 31

EQUAL PROTECTION UNDER THE LAW

17, 31

PURPOSE OF THE WRIT OF MANDAMUS

18

THE CODE OF CONDUCT, THE CANONS

18

ABUSE OF DISCRETION

19

BINDING PRECEDENT/STARE DECISIS

21

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF MANDAMUS
Petitioner respectfully prays that a writ of mandamus issue to review the judgment
below.
OPINIONS BELOW
IV] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
» or,
[ ] has been designated for publication but is not yet reported; or,
W] is unpublished.
The opinion of the United States district court appears at Appendix
petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
IV] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
j or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the court appears at Appendix to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

Page 2 of 34

B

to the

JURISDICTION
[A For cases from federal courts:
The date on which the United States Court of Appeals decided my case
January 5, 2021
was
[ ] No petition for rehearing was timely filed in my case.
[A A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_February 16, 2021_, and a copy of the order
denying rehearing appears at Appendix D.
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on (date) in Application No. A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ ] For cases from state courts: The date on which the highest state court decided my
case was . A copy of that decision appears at Appendix________ .
[ ] A timely petition for rehearing was thereafter denied on the following date: , and
a copy of the order denying rehearing appears at Appendix .
[ 3 An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on (date) in Application No. A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Due process
Rights to a fair due process
Civil Rights
• Discrimination
• Retaliation

Page 3 of34

STATEMENT OF THE CASE

In accordance with United States Supreme Court Rules 20 and 21, I’m
requesting a Writ of Mandamus for the Tenth Circuit Court of Appeals’
Opinion dated January 5, 2021 and Order dated February 16, 2021.

The United States District Court for Colorado and the United States
Court of Appeals for the Tenth Circuit have abused their discretion and
arbitrarily decided not to consider all the written & verified facts and
review claims made under certain governing laws for my lawsuit. They
are refusing to acknowledge that my protected complaints & activities
are against the two people that removed me from Federal service and
the malicious & false stalking allegations by one of them. This is
beyond an abuse of discretion. By not having all of the facts of my
lawsuits considered, this has been very harmful to my case and it’s
affecting my right rights to a fair decision. I’m asking the Supreme
Court to order a correction of the abuse of discretion. I reviewed all of
the errors by the District Court in Appendixes F and G.

Page 4 of 34

The major allegation that I was accused of is absence without
leave(AWOL) when I performed a legal self-removal(Appendix A, page
4, footnote) from the office to avoid conflict with a person that had
falsely accused me of criminal allegations(stalking). According to the
SBA’s Master Agreement(MA), I’m not supposed to be considered
AWOL(that’s a violation of policies & procedures), especially when I
reported the self-removal to the senior management by the next
business day(#48, pages 272-283). I followed up with the senior
management(#48, pages 285-305). The charges for misconduct are by the
same person that falsely accused me of the criminal behavior and who
couldn’t follow policies & procedures; that person has no credibility. By
the way, my alleged misconduct occurred while dealing with illegal
harassment & hostility from a person I had multiple protected
complaints & activities against and the management never responded
to any of my complaints. How many violations and acts of misconduct
does a pack of so-called managers have to make before it’s considered
illegal retaliation.

Page 5 of34

My protected complaints & activities(3l)(Document #55-1) were against
Jennifer Vigil and Peter Gibbs, the two people that issued all the
adverse actions against me, including the false & malicious stalking
allegation(#48, page 118, lines 5-19)(that was immediate retaliation and
that’s a criminal allegation) by Vigil and the removal(#s 45-21 & 45*22).
I had a grave concern about meeting Vigil in her office, alone. She actually
made two false stalking charges against me(#48-2, pages 41 & 42).
Twenty(20) of the protected complaints & activities are
undisputed(Appendix H- #39, pages 15*22). Those protected complaints
included two formal EEOC complaints against Vigil and Gibbs. Vigil
and Gibbs were my 1st and 2nd line supervisors?' that created a causal
connection and a motivating factor for retaliation.1 Staub v. Proctor
Hosp., 562 U.S. 411, 418*22 (2011) (applying "cat's paw" theory to a
retaliation claim under the Uniformed Services Employment and
Reemployment Rights Act, which is "very similar to Title VII"holding
that "if a supervisor performs an act motivated by antimilitary animus
that is intended by the supervisor to cause an adverse employment
action, and if that act is a proximate cause of the ultimate employment
1 https://www.eeoc.gov/laws/guidance/enforcement-guidance-retaliation-and-relatedissues#C. Causal
Page 6 of 34

action, then the employer is liable").2 See #s 48 and 55. Vigil & Gibbs
took the actions against me themselves. Those two blatantly violated
the SBA’s policies & procedures to remove me from Federal service and
subjected me to multiple instances of regular retaliation and
retaliatory harassment. Regarding the self-removal, I had performed
an agency approved maneuver to avoid conflict in the office, especially
since I had just found out about that first malicious criminal allegation.

I suffered multiple materially and tangible adverse actions by Vigil and
Gibbs, including letters of reprimand, downgraded performance
reviews, AWOLSs, numerous incidents of retaliatory
harassment(including threats, provocations, and interference with my
job), a suspension, and removal. All of those personnel actions are
actionable under Burlington Northern & Santa Fe Railway Co. v.
White, 548 U.S. (2006)3 4 5 6. The complaints and retaliation lasted for

2 https://www.eeoc.gov/laws/guidance/enforcement-guidance-retaliation-and-relatedissues# ftn!45
3 https://www. eeoc. gov/retaliation
4 https://www. eeoc. gov/laws/guidance/enforcement-guidance-retaliation-and-relatedissues#B. Materially
5 https://www.eeoc.gov/laws/guidance/questions-and-answers-enforcement-guidanceretaliation-and-related-issues
6 https://www.eeoc.gov/policv/docs/harassment.html
Page 7 of 34

over two(2) years, from April 2014 through September 2016? that’s
severe and pervasive. The SBA management refused to follow their
own policies & procedures by investigating my complaints(#48-2, pages
18 & 19, No. 19 & #48-2, pages 23 & 24, items No. 24 & 25 and #48-2,
pages 162-176). The SBA’s senior management appeared to not be
concerned(#48-2, pages 99 & 100, item #s 6 & 7). I guess the concerns
of a Black man being harassed by a White woman was not that
important to a predominantly White management team.

I noticed the Tenth Circuit brought up Frank Lalumiere, former SBA
surety bond Director, in their January 5, 2021 decision(Appendix A).
Lalumiere was my 3rd line supervisor. When I made a complaint to him
in October 2014(Appendix H: Document #39, Item #15), he told me not
to bother him with any type of complaints(#48, pages 155 & 156). Fast
forward to November 2015, Lalumiere ordered me into to a hostile,
harassing, and retaliatory work environment after Jennifer Vigil
terminated my telework schedule prematurely. Keep in mind, this is
after Vigil said I was stalking her(#48, page 118, lines 5-19). The MA
says I should have had a 5 day notice, Vigil did an immediate
Page 8 of 34

termination. I tried to get the senior management to give me some
guidance on the situation, but they ignored my questions, as
usual(Appendix F- #58, page 42-43, #s 21-23 or #48-3, pages 77-81). I
also told them about how Vigil had called me that morning in a hostile
manner making threats(#48*3, page 80,1f3). Lalumiere wanted me to
report to the office when I had been teleworking that day. By the way,
Lalumiere was located in Washington, D.C. while I was in Denver, CO;
that’s a distance of about 1,500 miles. I had tele worked for 3 hours and
I had to take the reminder of the day off! that was interference with my
job performance. On May 17, 2016,1 ended up getting a 30-day
suspension for this incident, which was approved by Peter Gibbs(#48,
pages 348-353). This was after my self-removal on April 22, 2016.
There were multiple violations by the SBA management in this
incident.

Regarding the April 22, 2016 self-removal, I never returned to work on
May 17, 2016 like the Tenth Circuit indicated in Appendix A, page 5,
f2, last sentence). Gibbs suspended me on May 17, 2016 while I was
still waiting on a response from the senior management(#48, pages 348Page 9 of 34

353 and Appendix H: #39, item 39). For the most complete picture of
the situation, I suggest reviewing Appendix F: #58, pages 26-32.

I requested and was granted a de novo appeal of the District Court’s
opinion. The review should have been from the beginning and based
strictly on the facts and laws. I wanted to spare the government the
expense and embarrassment of going through a trial. When you review
the January 5, 2021 decision by the Tenth Circuit, you will notice that
neither did they mention that my protected complaints & activities
were against Peter Gibbs & Jennifer Vigil, including the complaint &
notification about my April 22, 2016 self-removal that was sent to
several senior managers, nor did they mention the malicious stalking
allegations from December 2015 and June 2016 nor did they review my
claims under Burlington Northern and Withrow v. Larkin, 421 U.S. 35,
58 (1975). The Tenth Circuit did mention Burlington Industries, Inc. v.
Ellerth, 118 S. Ct. 2257 (1998) and Faragher v. City ofBoca Raton, 118
S. Ct. 2275 (1998)7, but what good is that without first recognizing the

7 https://www.eeoc. gov/policv/docs/harassment.html
Page 10 of 34

prerequisite governing law and actionable items, including retaliatory
harassment, under Burlington Northern.

I’m asking the Supreme Court to order a correction of the abuse of
discretion and uphold the rule of law & equal protection under the law
by requiring the Tenth Circuit Court of Appeals to review my wrongful
termination lawsuit under Burlington Northern and Withrow
comply with the binding precedent of the United States Supreme Court
and any of the Tenth Circuit’s own binding precedent.

After reviewing and recognizing the retaliation under Burlington
Northern and Withrow, I’m also asking the Court to order the Tenth
Circuit to thoroughly consider retaliatory harassment and rule
according to the binding precedent of Burlington Industries, Inc. v.
Ellerth, 118 S. Ct. 2257 (1998) and Faragher v. City ofBoca Raton, 118
S. Ct. 2275 (1998).

I had a clean personnel file and an excellent performance record prior to
the protected complaints & activities(#48-3, pages 306-315 & 317).
Page 11 of 34

My Material Facts have included claims under Burlington Northern &
Santa Fe Railway Co. v. White, Withrow v. Larkin, and Burlington
Industries, Inc. v. EUerth, & Faragherv. City of Boca Raton since 2016.

Adverse employment actions (material & tangible) are ones that would
discourage a reasonable employee from engaging in conduct protected
by Title VII. Burlington Northern and Santa Fe RR Co. v. White, 548
U.S. 53, 68 (2006).

“Retaliation claims are “not limited to discriminatory actions
that affect the terms and conditions of employment and may
extend to harms that are not workplace-related or
employment related so long as a reasonable employee would
have found the challenged action materially adverse”. See
Burlington iV548 U.S. at 64.

Article VI of the United States Constitution
says
Clause 2
This Constitution, and the Laws of the United States which
shall be made in Pursuance thereof and all Treaties made,
or which shall be made, under the Authority of the United
https: //constitution, congress, gov/browse/article-6/
Page 12 of 34

States, shall be the supreme La w of the Land! and the
Judges in every State shall be bound thereby, any Thing in
the Constitution or Laws ofany State to the Contrary
notwithstanding.
Clause 3
The Senators and Representatives before mentioned, and the
Members of the several State Legislatures, and all executive
andjudicial Officers, both of the United States and of the
several States, shall be bound by Oath or Affirmation, to
support this Constitution! but no religious Test shall ever be
required as a Qualification to any Office or public Trust
under the United States.

First Amendment9
Congress shall make no law respecting an estabhshment of
rehgion, or prohibiting the free exercise thereof or abridging
the freedom ofspeech, or of the press! or the right ofthe
people peaceably to assemble, and to petition the
Government for a redress ofgrievances.

The Fifth Amendment10
No person shall......be deprived oflife, liberty, or property.
without due process oflaw! nor shall private property be
taken for pubhc use, without just compensation.

9 https://constitution.congress. gov/browse/amendment-1/
10 https://constitution. congress, gov/constitution/amendment-5/
Page 13 of 34

The government considers my job property. I have additional remedies
available to me in other forums because of that. Also, the Fifth
Amendment requires equal protection under the law.

The Ninth Amendment11
The enumeration in the Constitution, ofcertain rights, shall
not be construed to deny or disparage others retained by the
people.
I have a right to a fair judicial process; the Canons explicitly give every
American citizen that right.

The Rule of Law

America is a Constitutional Republic. We regular Americans depend on
the United States Constitution, statutory laws, United States Supreme
Court precedents, and Circuit Court precedents for us to function
properly. The Rule of Law is the foundation of the country’s judiciary
branch. We ordinary citizens depend on the rule of law. We need the
rule of law to keep us safe and protect our rights.
11 https://constitution.congress.gov/constitutioo/amendment-9/
Page 14 of 34

Per the United States Courts’ website:12
Rule oflaw is a principle under which all persons,
institutions, and entities are accountable to laws that are• Publicly prom ulga ted
• Equally enforced
• Independently adjudicated
• And consisten t with in terna tional h uman
rights principles.
It further says^
Equality before the law is such an essential part of the
American system ofgovernment that, when a majority,
whether acting intentionally or unintentionally, infringes
upon the rights of a minority, the Court may see fit to hear
both sides of the controversy in court.
The American Bar Association says:13
The rule oflaw is a set ofprinciples, or ideals, for ensuring
an orderly and just society.
It further states-14
Judges interpret and apply the law to specific issues brought
before them when two parties disagree and resolve disputes
between people, companies, and units ofgovernment.

12 https://www.uscourts.gov/educational-resources/educational-activities/overview-rule-law
13 https://www.americanbar.org/groups/public education/resources/rule-of-law/
14 https://www.americanbar.org/groups/public education/resources/rule-of-law/rule-of-lawand-the-courts/
Page 15 of 34

Often, the judiciary is called on to uphold limitations on the
government. The judiciary protects against abuses by the
other branches ofgovernment. It protects minorities ofall
types from the majority and protects the right ofpeople who
cannot protect themselves.
The Role ofJudges
Even though judges work for the government, they are not
law enforcement officers. Judges are not prosecutors and
they do not arrest people or try to prove that they are guilty.
Their role is to see that the rule ofcourt procedures are
followed by both sides without being influenced by public
perception or their own personal views.

Black’s Law Dictionary says The Four Pillars of Rule of Law are'15
•
•
•
•

The law applies to everyone
The laws are not secret or arbitrary
The laws are enforced fairly
The justice system is fair

Lexico(powered by Oxford Dictionary) says-16

Rule oflaw- The restriction of the arbitrary exercise ofpower by
subordinating it to well-defined and established laws.

15 https://thelawdictionarv.org/article/four-pillars-rule-of-law/
16 https://www.lexico.com/en/defimtion/rule of law
Page 16 of 34

Equal Protection Under The Law77
Equal Protection refers to the idea that a governmental body
may not deny people equal protection ofits governing
laws. The governing body state must treat an individual in
the same manner as others in similar conditions and
circumstances.
The Fifth Amendment's Due Process Clause requires the
United States sovernment to practice equal protection.
When an individual believes that either the federal
government or a state government has violated that
individual's guaranteed equal rights, that individual is able
to bring a lawsuit against that governmental body for relief.
Due process requires that the procedures by which laws are
applied must be evenhanded, so that individuals are not
subjected to the arbitrary exercise ofgovernment power.18
When the Constitution requires a hearins. it requires a fair
one, held before a tribunal that meets currently prevailing
standards ofimpartiality. A party must be given an
opportunity not only to present evidence, but also to know
the claims of the opposing party and to meet them.19

17

https://www.law.comell.edu/wex/equal protection#:~:text=Equal%20Protection%20refers%
20to%20the.in%20similar%20conditions%20and%20circumstances.
18 https://constitution.congress.gov/browse/essav/amdt5-4-4- 1/ALDE 00000878/
19 https://constitution.congress.gov/browse/essav/amdt5-4-4-3-2-2-3/ALDE 00000885/
Page 17 of 34

All Writs Act20
28 U.S. Code § 1651 - Writs
(a)
The Supreme Court and all courts established by Act
of Congress may issue all writs necessary or appropriate in
aid of their respective jurisdictions and agreeable to the
usages and principles oflaw.
(b)
An alternative writ or rule nisi may be issued by a justice or
judge of a court which has jurisdiction.

Mandamus21
A (writ of) mandamus is an order from a court to an inferior
government official ordering the government official to
properly fulfill their official duties or correct an abuse of
discretion.

The Canons22
Canon V A Judge Should Uphold the Integrity and
Independence ofthe Judiciary
An independent and honorable judiciary is indispensable to
justice in our society. A judge should maintain and enforce
high standards ofconduct and should personally observe
those standards, so that the integrity and independence of
20 https://www.law.comell.edu/uscode/text/28/1651
21

https://www.law. comell.edu/wex/mandamus#:~:text=A%20fwrit%20of)%20mandamus%20i
s.United%20States%20Dist.
22 https://www.uscourts.gOv/iudges-iudgeships/code-conduct-united-states-iudges#d
Page 18 of 34

the judiciary may be preserved. The provisions of this Code
should be construed and applied to further that objective.
Canon 2-A Judge Should Avoid Impropriety and the
Appearance ofImpropriety in all Activities
(A) Respect for La w. A judge should respect and comply
with the la w and should act at all times in a manner that
promotes public confidence in the integrity and impartiality
of the judiciary.
Canon 2A. An appearance ofimpropriety occurs when
reasonable minds, with knowledge ofall the relevant
circumstances disclosed by a reasonable inquiry, would
conclude that the judge’s honesty, integrity, impartiality,
temperament, or fitness to serve as a judge is impaired.
Canon 3-A Judge Should Perform the Duties ofthe Office
Fairly, Impartially and Diligently
The duties ofjudicial office take precedence over all other
activities. The judge should perform those duties with
respect for others, and should not engage in behavior that is
harassing, abusive, prejudiced, or biased. The judge should
adhere to the following standards *
(4) A iudse should accord to every person who has a lesal
interest in a proceeding, and that person’s lawyer, the full
risht to be heard accordins to law.

Abuse ofDiscretion23
Definition
A standard ofreview used bv appellate courts to review
decisions oflower courts. The appellate court will typically
23 https://www.law.comell.edu/wex/abuse of discretion
Page 19 of 34

find that the decision was an abuse ofdiscretion if the
discretionary decision was made in plain error.
Overview
The abuse ofdiscretion standard is used for when a lower
court makes a discretionary ruling. On appeal, ifa party
challenges the ruling, then the appellate court will use the
abuse ofdiscretion standard to review the ruling.
The abuse ofdiscretion standard is used by appellate courts
to review lower court decisions in both criminal law and civil
law.
In General Electric Co. v. Joiner. 522 US. 136 (1997).
the Supreme Court held that abuse ofdiscretion standard is
the proper standard to use when reviewing evidentiary
rulings, including whether to admit or exclude expert
testimony.

A Simple Definition of Abuse ofDiscretion24
A failure to take into proper consideration the facts and law
relating to a particular matter! an Arbitrary or unreasonable
departure from precedent and settled judicial custom.
Where a trial court must exercise discretion in deciding a
question, it must do so in a way that is not clearly against
logic and the evidence. An improvident exercise of discretion
is an error ofla w and grounds for reversing a decision on
appeal. It does not, however, necessarily amount to bad
faith, intentional wrong, or misconduct by the trial judge.

24 https://legal-dictionarv.thefreedictionarv.com/Abuse+of+Discretion
Page 20 of 34

As a Black American citizen, I hope I can depend on this information.

Binding Precedent Requirement

I’m asking the Supreme Court to uphold the rule of law by ordering the
Tenth Circuit to honor the binding precedent I reviewed in my appeal in
their circuit and follow the practice of stare decisis2^to stand by things
already decided), as well as honor the Cannons by considering all facts.

The Offices of the United States Attorneys’ website says binding
precedent is26A prior decision by a court that must be followed without a
compelling reason or significantly different facts or issues.
Courts are often bound by the decisions ofappellate courts
with authority to review their decisions. For example,
district courts are bound by the decisions of the court of
appeals that can review their cases, and all courts - both
state and federal - are bound bv the decisions of the
Supreme Court of the United States.

25 https://www.law.comell.edu/wex/stare decisis
26 https: //www. i ustice. gov/usao/iustice-10 l/glossarv
Page 21 of 34

The website also says case law is:
The use ofcourt decisions to determine how other law (such
as statutes) should apply in a given situation. For example, a
trial court may use a prior decision from the Supreme Court
that has similar issues.
According to the Library of Congress’ website, “the U.S. Supreme Court
creates binding precedent that all other Federal courts must follow”27.

I hope we can follow the words of the current Chief Justice of the U.S.
Supreme Court, John Roberts, when he said:
During his Supreme Court confirmation hearing in 2005,
ChiefJustice John Roberts declared. Judges have to have
the humility to recognize that they operate within a system
ofprecedent shaped by otherjudges equally striving to live
up to the judicial oath, and judges have to have modesty to
be open in the decisional process to the considered views of
their colleagues on the bench. ”28
This all started over my April 2014 complaint(Appendix H, #8) against
a co-worker who had derogatory information in his personnel file from
another Federal agency and committed multiple acts of misconduct in
the SBA’s office(see #52, page 2, last If and page 3, f l; #48-3, page 148,
27 https://www.loc.gov/law/help/iudicial-decisions.php
28 https://www.scotusblog.com/2018/ll/empirical-scotus-the-strength-of-precedent-is-in-theiustices-actions-not-words/
Page 22 of 34

Ifl and page 155, Ifl). Also see #48-3, pages 129*136. Apparently, the
SBA’s management team was upset over my concerns about that one
particular individual.

Since the Department of Justice is a part of the Executive Branch, I
thought they were in a position to enforce the laws, not defend an
agency management team that violates the laws. I hope the United
States Solicitor General can get this worked out.

Page 23 of 34

REASONS FOR GRANTING THE PETITION

The writ will be in aid of the Court’s appellate
jurisdiction

• The petition will help the Tenth Circuit uphold the rule of law. It
is necessary & appropriate to ensure that the Tenth Circuit
follows the Unites States Constitution, statutory law, U.S.
Supreme Court & their own precedent, the Canons, apply the law
equally, and maintain public confidence.
• How would this look to the minority community if they saw this.

Exceptional circumstances warrant the exercise of the
Court's discretionary powers

• There has to be a correction of the abuse of discretion for this
matter, the rule of law and equal protection under the law
demands it.
Page 24 of 34

• The Tenth Circuit’s decision is a Constitutional violation. It’s a
civil rights violations. An egregious and very harmful abuse of
discretion has occurred with the appearance of discrimination. A
plain, material, and harmful error has occurred. The Fifth
Amendment requires equal protection under the law, due process.
The Ninth Amendment, along with the Canons, says I have a
right to a fair due process in the judicial process, including a
review of the facts, evidence, and governing laws of a lawsuit.
• It’s appropriate to uphold the rule of law; the Tenth Circuit has a
duty review all facts & governing laws and rule according to
statutory laws & the Supreme Court’s precedent. The Tenth
Circuit should also honor the Canons.
• The Tenth Circuit has a duty to perform a complete review of all
facts, evidence, and binding precedent under the governing laws.
• With the abuse of discretion and by making an arbitrary decision
to not review pertinent facts of the case and the governing laws for
the Material Facts, this has the appearance of discrimination in a
discrimination & retaliation lawsuit.

Page 25 of 34

• The abuse of discretion is substantially affecting my rights equal
protection under the written laws. I almost want to consider this
a trespass of the law.
• A situation like the one I experienced should not be allowed to
ever happen(regardless of demographics), especially in a taxpayer
funded government office, without a strong condemnation.
• In a retaliation lawsuit, there has to be recognition of the
complaints, who the complaints were against, and who took
adverse actions against the complainant.
• I totally understand and agree with judges having discretion over
motions, what evidence to introduce, or witnesses to hear; the
court does not have time for things that are irrelevant, but no
judge has the right to arbitrarily exclude relevant facts, evidence,
and governing laws without a justified reason; if this was the case,
the American public should be informed of this so we won’t waste
time & money on going to court in the first place. Certainly, we
wouldn’t file any so called protected complaints & activities and
expect the court system to protect us.

Page 26 of 34

Adequate relief cannot be obtained in any other form or
from any other court.

• There is no other remedy available to me that I know of other
than the United States Supreme Court because the decision was
made by United States Court of Appeals for the Tenth Circuit,
after the panel denied a request for a rehearing and the full bench
failed to consider a review.

The petition is not creating precedent, because the precedent already
exist.

Page 27 of 34

CONCLUSION

The decision by the Tenth Circuit, without any known or stated
reasons, to not consider relevant facts and review & offer an opinion
regarding Burlington Northern, Withrow, Ellerth/Faragher, or any
other relevant binding precedent is a Constitutional violation, an abuse
of discretion, and a violation of the Canons. The SBA has not even
disputed my claims.

I don’t want to take this suspected abuse any further. I want the SBA
to pay for their trespasses and no others. All of the facts of my lawsuit
have not been recognized and it has caused harm to my case, including
who the protected complaints & activities were against and the false &
malicious stalking allegations by the person that recommended me for
removal. The governing law for the type of lawsuit I have has not been
reviewed; it certainly hasn’t been reviewed based on prior standards.
My lawsuit was for discrimination and retaliation; Burlington Northern
is the governing law for retaliation claims. Retaliation is also a
violation of statutory law. See the Civil Rights Act of 1964, Title VII,
Page 28 of 34

SEC. 2000e-3 [Section 704]29. This would be a First Amendment
violation as well. The abuse of discretion has substantially affected my
rights and has influenced the outcome of the lawsuit. I have repeatedly
ask for all of the facts to be considered. I’m suffering from an injustice
because of the Tenth Circuit’s abuse of discretion,' they refuse to
perform it’s required duty that it’s legally bound to do. The Tenth
Circuit implied in their Opinion dated January 5, 202l(see Appendix A,
page 9) that I needed to demonstrate retaliation to have claims under
Ellerth and Faragher. They appeared to review Ellerth and Faragher,
but how can that happen without first reviewing the prerequisite
governing law, Burlington Northern. In the Petition for Rehearing and
Rehearing En Banc(see Appendix E), I reviewed a few items of the
retaliation part of my Material Facts that’s actionable under Burlington
Northern^ wanted to keep things simple),' that clearly demonstrated
retaliation. Once again, the Tenth Circuit ignored the facts, including
those malicious stalking allegations against me by Jennifer Vigil. I also
mentioned the unfair due process under Withrow. The Tenth Circuit
ignored that as well. Regarding the protected complaints & activities

29 https://www.law.comell.edu/uscode/text/42/2000e-3
Page 29 of 34

against the people that removed me, I included the Undisputed Facts at
Appendix H. The Tenth Circuit never even mentioned the preceding
facts in their opinion or order.

The Court should grant the petition because of the Tenth Circuit’s
abuse of discretion by refusing to acknowledge who my protected
complaints & activities were against, the malicious criminal allegations
against me, by not reviewing and giving an opinion on Burlington
Northern and Withrow, and to uphold the rule of law. The Tenth
Circuit’s decision was a Constitutional violation, an abuse of discretion,
and a violation of the Canons.

The claims in my lawsuit have already been decided by the U.S.
Supreme Court and all I need is the Tenth Circuit to review the facts
and the governing laws that I’ve presented. As I stated earlier, I’ve
been saying the same things since 2016 and it appears no one has been
interested in the rule of law or equal protection under the law.

Page 30 of 34

I am respectfully asking the U.S. Supreme Court to uphold the rule of
law and to recognize the abuse of discretion and the arbitrary decision
to ignore pertinent facts & law by the Tenth Circuit and order the
Tenth Circuit to review my lawsuit under the governing laws presented
in the record and follow all U.S. Supreme Court & Tenth Circuit
precedent and U.S. Constitutional standards that’s claimed in the
record for this matter. The abuse of discretion has substantially
affected my rights and has influenced the outcome of the lawsuit.

Appendixes E and H have everything a reasonable decisionmaker needs
to resolve this matter for a retaliation claim. All I’m asking for is
obedience to the rule of law and equal protection under the law.

\

For all the reasons listed above, I respectfully ask that the Court grant

the Writ of Mandamus or Alternative Writ and the Motion to Proceed In
Forma Pauperis.
Respectfully submitted,
Leonard English, Jr.
Date- February 26, 2021
Page 31 of 34

CERTIFICATE OF COMPLIANCE

No. 07-

In re LEONARD ENGLISH, JR.

- PETITIONER

As required by Supreme Court Rule 33.2(b), I certify that the petition for a Writ of
Mandamus contains__ 34__ pages, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 26, 2021

Leonard English, Jr.

Page 32 of 34

